   July 1, 2002




Acquisition

Allegations to the Defense Hotline on
the Management of the Defense
Travel System
(D-2002-124)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
         Additional Copies

         To obtain additional copies of this report, visit the Web site of the Inspector
         General of the Department of Defense at www.dodig.osd.mil/audit/reports or
         contact the Secondary Reports Distribution Unit of the Audit Followup and
         Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
         604-8932.

         Suggestions for Future Audits

         To suggest ideas for or to request future audits, contact the Audit Followup and
         Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
         fax (703) 604-8932. Ideas and requests can also be mailed to:

                           OAIG-AUD (ATTN: AFTS Audit Suggestions)
                           Inspector General of the Department of Defense
                                 400 Army Navy Drive (Room 801)
                                     Arlington, VA 22202-4704

         Defense Hotline

         To report fraud, waste, or abuse, contact the Defense Hotline by calling
         (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
         by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
         The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)             Assistant Secretary of Defense (Command, Control,
                        Communications, and Intelligence)
CECOM                U.S. Army Communications-Electronics Command
CUI                  Common User Interface
DTS                  Defense Travel System
JITC                 Joint Interoperability Test Command
MTMC                 Military Traffic Management Command
PMO                  Project Management Office
U.S.C.               United States Code
             Office of the Inspector General of the Department of Defense
Report No. D-2002-124                                                   July 1, 2002
      Project No. D2001FG-0148

               Allegations to the Defense Hotline on the Management
                            of the Defense Travel System

                                      Executive Summary

Who Should Read This Report and Why? This report concerns those managers who
are specifically involved with managing the Defense Travel System, as well as those
managing the development of information technology systems. The report discusses the
need to determine the appropriateness of the Defense Travel System to provide DoD
with an effective travel management process.

Background. The Defense Travel System was envisioned as a general support system
designed to make business travel quicker, easier, and more efficient by providing
automated commercial and Government travel support services to DoD travelers. The
Defense Travel System was expected to represent the 21st century model of efficiency
and service, featuring the best practices in industry and plug-and-play components. In
addition, the Defense Travel System was to be designed to speed and streamline the
entire cycle of authorization, reservation, and claims processing involved in global DoD
travel. In May 1998, the Military Traffic Management Command awarded a firm
fixed-price, performance-based services contract to TRW Incorporated∗ for
approximately $263.7 million to design and deploy the Defense Travel System. The
Defense Travel System contract included an aggressive timeline to commence deploying
the system to approximately 11,000 sites worldwide within 120 days of the effective
date of the contract, with completion approximately 38 months later.

Results. Despite recent actions by the Under Secretary of Defense (Acquisition,
Technology, and Logistics) and the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, the Defense Travel System remains a program at high risk of not
being an effective solution in streamlining the DoD travel management process. The
Defense Travel System was being substantially developed without the requisite
requirements, cost, performance, and schedule documents and analyses needed as the
foundation for assessing the effectiveness of the system and its return on investment. In
addition, planning for security at user sites is incomplete. The additional projected
funding for the Defense Travel System Program from FYs 2002 through 2007 was
$377.1 million. As a result, there was increased risk that the planned additional
investment of $377.1 million to fully develop and implement the Defense Travel
System and the $114.8 million and 6 years of effort already invested will not fully

∗
    Formerly BDM International Incorporated.
realize all goals to reengineer temporary duty travel, make better use of information
technology, and provide an integrated travel system. The Defense Travel System
Program is projected to expend approximately $491.9 million (approximately 87
percent more than the original contract cost of $263.7 million) and deployment will not
be completed until FY 2006, approximately 4 years behind schedule. Managing the
Defense Travel System as a major automated information system with requisite
documentation and tracking of cost, schedule, performance, and security can reduce the
program risk. Further performance of a cost-effectiveness study of the system will also
reduce risk. (See the Finding section for details on the audit results.)

Management Comments and Audit Response. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer, the Deputy Under Secretary of Defense
(Logistics and Materiel Readiness), and the Acting Principal Director, Deputy Assistant
Secretary of Defense (Programs) concurred with the intent of the recommendations but
disagreed with the draft report recommendation to suspend funding for the Defense
Travel System until it was determined whether the system was the most cost-effective
solution to a streamlined travel process. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer agreed with the intent of the report to improve
the oversight of the Defense Travel System Program and has already taken action to
manage the Defense Travel System as an Acquisition Category IAM program.
Additionally, he has tasked the Director, Program Analysis and Evaluation to do a
cost-effectiveness study to determine whether the Defense Travel System program
should continue or be terminated. The complete text of the comments is in the
Management Comments section of the report. The comments and actions initiated were
responsive. We revised the report recommendations because the proposed oversight
mechanism and cost-effectiveness study will reduce program risk and insert appropriate
decision points for deciding whether to continue or terminate the Defense Travel
System.




                                           ii
Table of Contents

Executive Summary                                                              i


Background                                                                     1


Objectives                                                                     2


Finding
     Management and Implementation of the Defense Travel System               3

Appendixes
     A. Scope and Methodology
         Scope                                                                15
         Methodology                                                          16
         Management Control Program Review                                    16
         Prior Coverage                                                       17
     B. Summary of Allegations                                                18
     C. Key Program Events                                                    20
     D. Departmental Policies                                                 21
     E. Report Distribution                                                   23

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer         25
     Deputy Under Secretary of Defense for Logistics and Materiel Readiness   37
     Deputy Assistant Secretary of Defense (Programs)                         41
Background
           This audit was performed in response to allegations made to the Defense Hotline
           concerning management of the Defense Travel System (DTS). See Appendix B
           for a synopsis of each allegation and audit results. Appendix C is an overview
           of key events that have resulted in an ongoing effort to reengineer the DoD
           temporary duty travel process.

           Reengineering DoD Temporary Duty Travel. As a result of the
           1993 National Performance Review, DoD identified travel as an area that
           required reengineering. The DoD Task Force to Reengineer Travel was
           established in July 1994 to conduct a comprehensive and systematic review of
           the DoD travel network using a “clean sheet of paper” approach. The DoD
           Task Force to Reengineer Travel concluded that the DoD travel process was
           fragmented, inefficient, expensive to administer, and occasionally impeded
           mission accomplishment. In January 1995, the DoD Task Force to Reengineer
           Travel issued the “Report of the Department of Defense Task Force to
           Reengineer Travel,” which addressed three principal causes for the inefficient
           DoD travel system:

                    •   travel policies and programs were focused on compliance with rigid
                        rules rather than mission performance,

                    •   travel practices did not keep pace with travel management
                        improvements implemented by industry, and

                    •   the travel system was not integrated.

           DTS Program Management. On December 13, 1995, the Under Secretary of
           Defense for Acquisition, Technology, and Logistics1 and the Under Secretary of
           Defense (Comptroller)/Chief Financial Officer issued a memorandum,
           “Reengineering Travel Initiative,” establishing the Project Management Office
           (PMO) to acquire travel services that would be used DoD-wide and support
           mission requirements, reduce costs, and provide superior customer service. The
           memorandum directed the PMO to report through the Under Secretary of
           Defense (Comptroller)/Chief Financial Officer to the Under Secretary of
           Defense for Acquisition, Technology, and Logistics. The memorandum also
           tasked the U.S. Transportation Command to provide a single procurement
           entity. As a result, the Military Traffic Management Command (MTMC) was
           designated to procure DTS. DTS was envisioned as a general support system
           designed to make business travel quicker, easier, and more efficient by
           providing automated commercial and Government travel support services to
           DoD travelers. DTS was expected to represent the 21st century model of
           efficiency and service, featuring the best practices in industry and plug-and-play



1
    Formerly the Under Secretary of Defense (Acquisition and Technology).

                                                    1
        components. Additionally, DTS was to be designed to speed and streamline the
        entire cycle of authorization, reservation, and claims processing involved in
        global DoD travel.

        In accordance with the December 1995 guidance, the PMO initiated the DTS
        Program as an acquisition of travel services rather than an acquisition
        investment in information technology. The PMO developed an acquisition plan
        based on using commercial-off-the-shelf software and provided it to the Under
        Secretary of Defense for Acquisition, Technology, and Logistics and the Under
        Secretary of Defense (Comptroller)/Chief Financial Officer for review. The
        acquisition plan was approved, thereby allowing the PMO to proceed with the
        acquisition of DTS as a travel service.

        Contract Award. In May 1998, MTMC awarded a firm fixed-price,
        performance-based services contract to TRW Incorporated (formerly
        BDM International Incorporated) for approximately $263.7 million to design
        and deploy DTS. However, because a protest was filed with the General
        Accounting Office, which was subsequently resolved, the effective date of the
        contract changed from May 1998 to September 1998. The contract specified
        that TRW Incorporated was to be paid a one-time deployment fee of $20 for
        each user, and an initial transaction fee of $5.27 for each travel voucher
        processed upon DTS achieving initial operational capability. However, the DTS
        contract did not define what DTS should accomplish in order to be functionally
        accepted nor did it include a test plan. The DTS contract also included an
        aggressive timeline to commence deploying DTS to approximately 11,000 sites
        worldwide within 120 days of the effective date of the contract, with completion
        approximately 38 months later.

        DTS Program Costs. Total DTS Program cost was estimated to be
        $491.9 million. Since December 1995, the PMO has expended approximately
        $114.8 million for the DTS Program from FYs 1996 through 2001. The
        projected funding for the DTS Program from FYs 2002 through 2007 was
        $377.1 million.2 The primary DTS Program costs include development,
        operational testing, and salaries for DoD civilians, contractors, and military
        support.



Objectives
        The audit objective was to review the allegations made to the Defense Hotline
        and to determine whether the DTS Program was being managed to meet cost,
        schedule, and performance requirements. We also evaluated the management
        control program as it related to the audit objectives. See Appendix A for a
        discussion of the audit scope and methodology, management control program,
        and prior coverage.


2
 The $377.1 million includes $190.6 million in operation and maintenance funds and $186.5 million in
research and development funds.

                                                  2
           Management and Implementation of the
           Defense Travel System
           Despite recent actions by the Under Secretary of Defense for
           Acquisition, Technology, and Logistics and the Under Secretary of
           Defense (Comptroller)/Chief Financial Officer, DTS remains at high risk
           for not being an effective solution to streamlining the DoD travel
           management process. DTS has been and was being substantially
           developed without the requisite requirements, cost, performance, and
           schedule documents and analyses needed as the foundation for assessing
           the system’s effectiveness and its return on investment. Specifically,

                  •   the DTS Program is not being managed as intended by the
                      Clinger-Cohen Act;

                  •   the user requirements community did not develop requirement
                      documents such as the mission needs statement or an
                      operational requirements document, which are used as the
                      basis for selecting an appropriate acquisition strategy for new
                      systems;

                  •   the Assistant Secretary of Defense (Command, Control,
                      Communications, and Intelligence) (ASD[C3I]) designated
                      DTS as a special interest initiative rather than a major
                      automated information system acquisition program;

                  •   DoD management oversight organizations failed to
                      appropriately address significant indicators of DTS Program
                      implementation problems; and

                  •   the PMO had not yet accomplished remedial actions directed
                      by the Under Secretary of Defense for Acquisition,
                      Technology, and Logistics and the Under Secretary of
                      Defense (Comptroller)/Chief Financial Officer in July 2001.

           As a result, there was increased risk that the planned additional
           investment of $377.1 million to fully develop and implement DTS and
           the $114.8 million and 6 years of effort already invested will not deliver
           a viable, integrated travel management system. Further, the mandated
           management oversight will not be able to be effectively accomplished
           without the requisite acquisition documents and analyses needed for
           informed decision-making.



Clinger-Cohen Act
    The Clinger-Cohen Act, Public Law 104-106, February 10, 1996, requires that
    managers implement deliberate processes for maximizing value and managing
    the risks associated with the acquisition of information technology. Section
                                          3
     5002 of Public Law 104-106 (section 1401, title 40, United States Code
     [U.S.C.]) defines information technology as any interconnected system used in
     the automated management of data or information, including software and
     services. Section 5125 (40 U.S.C. 1425) states that the Chief Information
     Officer of executive agencies is responsible for:

            •   providing advice and other assistance to the head of the executive
                agency and other senior management to ensure that information
                technology is acquired and information resources are managed
                effectively; and

            •   monitoring the performance of information technology programs of
                the executive agency, evaluating the performance of those programs,
                and advising the head of the executive agency whether to continue,
                modify, or terminate a program.
     In addition, section 5127 (40 U.S.C. 1327) requires the head of an executive
     agency to identify any major acquisition program related to information
     technology that has significantly deviated from the cost, performance, or
     schedule goals established for the program in the strategic information resources
     management plan.

     The ongoing emphasis in obtaining the full benefits of information technology
     has generated considerable Federal Government and DoD policy and guidance.
     Good business practices dictate that DoD managers implement and follow such
     policy. Appendix D summarizes the information technology, acquisition, and
     security guidance applicable to DTS.



Acquisition Strategy
     DoD did not manage DTS as an acquisition investment in information
     technology, follow the applicable Office of Management and Budget and DoD
     guidance for information technology acquisitions, or provide the oversight
     needed to ensure that DTS was an effective solution to streamline the DoD
     travel process. Further, DoD did not address indicators that the program was
     experiencing problems.

     Information Technology Investments. The Clinger-Cohen Act, along with
     Office of Management and Budget guidance and DoD policy, provide an
     effective framework for managing information technology investments, not just
     when a program is initiated, but continuously throughout the life of the
     program.

     From inception, DTS was to be integrated with other systems and share data,
     therefore requiring it to be compliant with acquisition laws and regulations.

     In December 1995, the Under Secretary of Defense for Acquisition,
     Technology, and Logistics and the Under Secretary of Defense
     (Comptroller)/Chief Financial Officer established the DTS PMO, but did not
                                         4
designate the program as a major automated information system. In June 1997,
ASD (C3I) designated the DTS Program as a special interest initiative. DoD
does not consider special interest initiatives subject to acquisition policy
requirements. As of April 2002, after extensive development and total program
costs estimated at $491.9 million, DoD still had not designated DTS as a major
automated information system. Consequently, the PMO had not prepared
essential documents in the acquisition process, to include a mission needs
statement, an operational requirements document, a life-cycle cost estimate, an
acquisition program baseline, and a test and evaluation master plan as required
by the DoD 5000 acquisition policy series.

Security. Additionally, DoD Instruction 5200.40, “DoD Information
Technology Security Certification and Accreditation Process,” December 30,
1997, prescribes standardized procedures to meet DoD system security
certification and accreditation requirements when implementing an information
technology system. DoD Components and the PMO have not addressed the
security requirements for the DTS software at the proposed sites where DTS
will be deployed. Specifically, the System Security Authorization Agreement
developed by the PMO only addresses the certification and accreditation of DTS
at the contractor site.

Projected Funding. The PMO has requested approximately $377.1 million
even though it has yet to provide an automated, paperless travel system that
meets all DoD temporary duty requirements. The following table identifies
additional projected funding requested by the PMO to implement DTS from
FYs 2002 through 2007.


              Projected Funding From FYs 2002 Through 2007

   Fiscal       Operation and               Research and              Total
   Year        Maintenance Funds          Development Funds       (in millions)

   2002                $61.6                      $19.6               $81.2
   2003                 53.8                       30.4                84.2

   2004                 37.0                       32.3                69.3

   2005                 12.5                       34.1                46.6

   2006                 12.7                       34.7                47.4

   2007                 13.0                       35.4                48.4

   Totals             $190.6                    $186.5              $377.1


Although the PMO originally envisioned that DTS could be deployed without
any development by using commercial-off-the-shelf products, since the effective
date of the contract (September 1998), they have had to do extensive
                                   5
        developmental work. From FYs 2002 through 2007, the PMO expects further
        development costs of approximately $186.5 million to complete development
        necessary to obtain critical functionality of the system, to continue developing
        solutions to integrate the common user interface (CUI)3 and the DoD
        accounting and disbursing systems, and to provide required engineering support
        to implement the system.

        Contract Issues. Because fundamental acquisition documents were never
        developed, the DTS contract was not properly structured for the implementation
        of DTS. Officials from the U.S. Army Communications-Electronics Command
        (CECOM) stated that under a restructured contract, TRW Incorporated would
        be paid a firm-fixed price on a monthly basis for a deployment team responsible
        for implementing DTS.



Indicators of Problem
        Test and Evaluation. The PMO originally expected to complete testing and
        commence deploying DTS within 120 days of the effective date of the contract,
        with deployment to be completed within 38 months (April 2002). Officials from
        the PMO stated that when testing began in November 1998, they immediately
        recognized that the travel system they envisioned was more cumbersome than
        anticipated. The PMO, in coordination with the DoD Components, developed
        specific test scenarios to test the ability of the TRW Incorporated CUI to meet
        the overall functionality envisioned by DoD. The PMO began testing 326 test
        scenarios to validate the capability of the CUI to accept a trip request, produce a
        “should cost” estimate,4 identify exceptions to policy, and accurately compute a
        final reimbursement voucher. During this phase of testing, several deficiencies
        were identified, including the computation module’s inability to calculate
        temporary duty travel in conjunction with leave and travel that required partial
        payments. By early 1999, it was evident that the commercial-off-the-shelf
        software required major development and modifications in order to meet DoD
        requirements.
        The second phase of testing included validating 230 test scenarios to
        demonstrate full system functionality, including external interfaces, of the CUI
        in a controlled environment prior to conducting operational tests at DoD sites.
        At the completion of this phase of testing, 87 “critical” discrepancies were
        identified. Of the 87 discrepancies, the PMO determined that 15 were
        associated with functionality that could be addressed in future releases of DTS.
        The remaining 72 discrepancies would be corrected in software and business
        process updates. Each new release and software update required more
        development and modifications.
3
  The CUI represents the automation that integrates the necessary functions of DTS and provides an
interface to other systems involved in the travel process including the Defense Electronic Business
Exchange, DoD Accounting and Disbursing Systems, and the DoD Public Key Infrastructure.
4
  A “should cost” estimate is the standard or baseline amount the Government is willing to pay at the time
a trip is planned and authorized. “Should cost” estimates include allowable transportation, lodging, and
rental car expenses; per diem for meals; and approved reimbursable incidental expenses.

                                                    6
    The first operational assessment was scheduled to occur from October 23
    through December 22, 2000, at Whiteman Air Force Base, Missouri. As a
    result of 72 discrepancy reports and substantial deployment problems, the PMO
    terminated the operational assessment on November 8, 2000.

    A second operational assessment by the Joint Interoperability Test Command
    (JITC) occurred at Ellsworth Air Force Base, South Dakota, from July 26 to
    August 29, 2001. In a report issued by JITC in October 2001, JITC stated that
    DTS failed to meet certain critical requirements, and as a result, JITC did not
    consider DTS to be an operationally effective system for all DoD Components.

    Developmental Requirements. As of April 2002, the PMO had not
    documented the amount or nature of the development required to implement
    DTS, but PMO officials stated that the required development was extensive.
    Because the PMO had recognized that DTS would require extensive
    development by early 1999, the PMO should have informed the Under Secretary
    of Defense for Acquisition, Technology, and Logistics and the Under Secretary
    of Defense (Comptroller)/Chief Financial Officer of that requirement and the
    need to reconsider the DTS acquisition strategy. By that time, it was clear that
    continuing the DTS initiative as a services acquisition was inappropriate and that
    it should rather be managed as an acquisition investment in information
    technology.

    Deployment Plan. Although the PMO originally expected to deploy DTS to
    approximately 11,000 sites, the DTS deployment plan has been reduced to
    approximately 260 sites. The revised deployment schedule includes fielding
    DTS to 10 pilot sites during FY 2002 and to approximately 250 high-volume
    travel sites from FYs 2003 to 2006. Although officials from the PMO stated
    that deploying DTS to approximately 260 sites would include approximately
    86 percent of all DoD travelers, deployment to even this reduced number of
    sites will not be completed until FY 2006, approximately 4 years behind
    schedule. The PMO and the Defense Finance and Accounting Service have not
    tested all DoD accounting and disbursing systems to ensure an adequate
    interface exists with the CUI. As of April 2002, 27 (71 percent) of the
    approximately 38 DoD accounting and disbursing systems, with which DTS
    may interface, had not been tested.

    The PMO should not deploy DTS to any site until DTS is designated a major
    automated information system, all acquisition documents have been completed,
    a program review has been conducted by the Overarching Integrated Product
    Team, and the Milestone Decision Authority has approved the system to
    proceed.



Program Oversight
    Special Interest Initiatives. ASD(C3I) did not provide adequate oversight for
    the DTS Program as a special interest initiative. As the DoD Chief Information
    Officer, ASD(C3I) designated the DTS Program as a special interest initiative
    rather than a major automated information system. On June 11, 1997, the
                                        7
Office of ASD(C3I) issued a memorandum, “Designation of Major Automated
Information Systems and Other Special Interest Major Initiatives and Related
Quarterly Reporting Requirements,” updating the list of DoD major information
technology investments and special interest initiatives, including the DTS
Program.

Congressional Requirements. Congress enacted reform legislation to improve
the methods by which Federal agencies select and manage information
technology resources. To comply with congressional requirements, on
May 7, 1997, ASD(C3I) was directed to provide oversight and management for
all DoD information technology investments.

        May 1999 Memorandum. On May 5, 1999, the Office of the ASD(C3I)
issued a memorandum, “Designation of Major Automated Information System
Acquisition Programs/Special Interest Initiatives and Related Oversight
Requirements,” providing general guidance for programs designated as special
interest initiatives. Specifically, the memorandum required the DoD Chief
Information Officer to:

       •   incorporate into regulatory guidance and oversight processes those
           requirements included in the Clinger-Cohen Act for information
           technology investments; and

       •   tailor management, oversight, and quarterly reporting requirements
           to ensure that warfighter requirements are met.

ASD(C3I) did not follow that guidance and did not establish or tailor
management and oversight requirements for the DTS Program. Specifically,
ASD(C3I) did not require the PMO to:

       •   submit an acquisition strategy for review and approval; and

       •   coordinate and obtain consensus on acquisition requirements that
           added value to the DTS Program, especially requirements related to
           cost, performance, and schedule.
ASD(C3I) required the PMO to submit quarterly reports that identified the
progress and implementation status of the DTS Program. The DTS quarterly
reports identified program issues affecting DTS milestones, fielding schedules,
system interfaces, and software development. Officials from ASD(C3I) stated
they reviewed the DTS quarterly reports to determine whether the DTS Program
was satisfactorily progressing. However, officials from ASD(C3I) also stated
that the DTS quarterly reports did not always appear to report the “true state” of
the DTS Program. Officials from ASD(C3I) stated that it was not until the
Whiteman Air Force Base operational assessment was terminated in November
2000 that they became more involved and interested in the DTS Program.

        March 2001 Memorandum. On March 30, 2001, ASD(C3I) issued a
memorandum, “Designation of Major Automated Information System
Acquisition Program,” that updated the May 1999 guidance. The memorandum
identified those DoD information systems designated as major automated
information systems subject to DoD acquisition requirements. However, the
                                   8
     memorandum did not address oversight requirements for special interest
     initiatives. Instead, the memorandum stated that ASD(C3I) would issue separate
     guidance on major information technology investments subject to ASD(C3I)
     oversight by the end of FY 2001. During a meeting on November 26, 2001,
     officials from ASD(C3I) stated that they planned to redesignate DTS from a
     special interest initiative to a major acquisition information system. As of
     April 2002, ASD(C3I) had not issued guidance for managing special interest
     initiatives nor had they redesignated DTS as a major acquisition information
     system.

     Other Oversight Structures. The Under Secretary of Defense for Acquisition,
     Technology, and Logistics and the Under Secretary of Defense
     (Comptroller)/Chief Financial Officer did not adequately address issues
     affecting the implementation of DTS. However, officials from the two Under
     Secretaries of Defense stated that they had provided direct oversight since DTS
     Program inception. Officials from the Under Secretary of Defense for
     Acquisition, Technology, and Logistics and the Under Secretary of Defense
     (Comptroller)/Chief Financial Officer also stated that the DTS Program was
     subjected to regular flag-level committee meetings that provided oversight for
     the progress of the program.

     Senior-Level Working Groups. The DoD Task Force to Reengineer Travel
     established two senior-level committees, an O-8 Steering Group and an
     O-6 Working Group, to serve as focal points for all DoD activities during the
     effort to reengineer DoD travel. The committees included representatives from
     each of the DoD Components; the Under Secretary of Defense for Acquisition,
     Technology, and Logistics; the Under Secretary of Defense (Comptroller)/Chief
     Financial Officer; ASD(C3I); and the PMO. The committees’ primary function
     was to present issues and concerns related to reengineering DoD travel,
     including implementing the DTS Program, and to resolve those issues and
     concerns. During each committee meeting, a status of the DTS Program was
     presented serious issues affecting deployment, including the need for a viable
     deployment schedule and the necessity for extensive development and testing to
     meet functionality requirements, were often addressed. However, not until
     January 2001 did either the Under Secretary of Defense for Acquisition,
     Technology, and Logistics or the Under Secretary of Defense
     (Comptroller)/Chief Financial Officer recommend that the program be
     reassessed, even though extensive development had been necessary since 1999
     and the deployment timeline defined in the contract had been significantly
     exceeded.



Directed Actions
     The Under Secretary of Defense for Acquisition, Technology, and Logistics and
     the Under Secretary of Defense (Comptroller)/Chief Financial Officer expressed




                                        9
and directed specific actions towards the DTS Program after discrepancies were
identified during the first operational assessment attempted at Whiteman Air
Force Base.

January 2001 Memorandum. On January 19, 2001, the Under Secretary of
Defense for Acquisition, Logistics, and Technology and the Under Secretary of
Defense (Comptroller)/Chief Financial Officer issued a memorandum, “Defense
Travel System Program/Contract Assessment,” stating that recent deficiencies
identified during Phase IIIa acceptance tests raised serious concerns about the
DTS Program. The memorandum required:

       •   the PMO, in coordination with ASD(C3I), the Defense Information
           Systems Agency, the Defense Finance and Accounting Service, the
           Military Departments, the Office of the Deputy Chief Financial
           Officer, and the U.S. Transportation Command, to complete a
           functional assessment of the DTS Program;

       •   an independent technical assessment that would identify measures
           needed to improve DTS response times; and

       •   the Army to determine specific actions necessary for the DTS
           contract based on the results of the functional and technical
           assessments.

The memorandum also directed that overall functional responsibility be assigned
to the U.S. Transportation Command.

Completed Actions. Officials from the PMO stated that they had completed a
functional assessment and had reported to the Under Secretary of Defense for
Acquisition, Technology, and Logistics and the Under Secretary of Defense
(Comptroller)/Chief Financial Officer that DTS is a viable system that will meet
DoD temporary duty travel requirements. Officials from the PMO stated that
they did not prepare a formal written functional assessment, but rather provided
multiple briefings with charts to the Under Secretary of Defense for Acquisition,
Technology, and Logistics and the Under Secretary of Defense
(Comptroller)/Chief Financial Officer. The PMO contracted with an
independent contractor to perform a technical assessment to determine whether
DTS response times met testing requirements. On April 20, 2001, the PMO
issued a report prepared by the contractor stating that response times met the
developed acceptance criteria at remote sites. This conclusion was based on
tests of how infrastructure performance issues could affect DTS response times
performed at nine major DoD sites in a controlled test environment.

Actions Not Completed. The DTS original contract did not include essential
elements necessary for the effective acquisition of DTS. Specifically, the DTS
contract did not define what DTS was required to accomplish in order for it to
be functionally accepted nor did it include a test plan. On April 5, 2001, the
Assistant Secretary of the Army (Procurement) issued a memorandum directing
CECOM to assume responsibility for the contract from MTMC, to include
restructuring the DTS contract. The memorandum also states CECOM should
become responsible for the contract because of its expertise in large information
technology contracts. Officials from CECOM stated that the primary changes to
                                     10
    the contract would include eliminating the one-time deployment fee for each
    user and the initial transaction fee for each travel voucher processed, and
    modifying the method of payment to TRW Incorporated. Officials from
    CECOM stated that TRW Incorporated would be paid a firm-fixed price on a
    monthly basis for a deployment team responsible for implementing DTS.
    Officials from CECOM stated they did not complete restructuring the DTS
    contract until March 29, 2002.

    July 2001 Memorandum. On July 17, 2001, the Under Secretary of Defense
    for Acquisition, Technology, and Logistics and the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer issued a memorandum, “Defense Travel
    System,” which approved proceeding with the DTS Program. The
    memorandum stated that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics and the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer would continue to provide policy
    oversight to the DTS Program. However, upon completion of necessary
    contract actions, the U.S. Transportation Command was directed to assume
    responsibility for the DTS Program. The memorandum also directed that DTS
    Program oversight be accomplished in accordance with DoD Instruction 5000.2,
    “Operation of the Defense Acquisition System,” March 15, 1996 (revised
    January 4, 2001). U.S. Transportation Command or its designee was to be the
    Designated Approval Authority for the DTS system security certification and
    chair the DTS Configuration Control Board. However, a December 11, 2001,
    budget decision delayed transferring DTS Program responsibility to the U.S.
    Transportation Command until FY 2004 to allow the program to be in a full
    deployment mode. The budget decision did not establish an interim authority
    over the DTS Program in place of U.S. Transportation Command to ensure that
    it would adhere to the requirements of DoD Instruction 5000.2 or complete the
    other directed actions detailed in the July 2001 memorandum.



Conclusion
    DoD envisioned that DTS would represent a 21st century model of efficiency
    and service, featuring the best practices in industry and plug-and-play
    components. When fully operational, DTS was expected to provide an
    automated and paperless system that met the needs of nearly 3.5 million active
    duty military, reserve, and DoD civilian travelers. Sound business practices and
    an information technology investment that borders on a half-billion dollars
    dictate a need for a process to assess progress towards established goals,
    especially for cost, performance, schedule, and security. Such a process has not
    been established for DTS. DoD should manage the DTS Program as a major
    automated information system and ensure it meets requirements of the
    Clinger-Cohen Act and Office of Management and Budget and DoD acquisition
    and security policies.




                                       11
Management Comments on the Finding and Audit Response
    PMO Comments. Management comments from the PMO were enclosed with
    the response from the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer and are reproduced in their entirety along with that response. The PMO
    stated that the report erroneously indicated that the PMO had reduced the
    number of sites that will receive DTS. When fully implemented, DTS will
    provide temporary duty travel services to all of the original 11,000 envisioned
    sites.

    Audit Response. According to the PMO, the original plan was to deploy DTS
    to about 11,000 sites worldwide. However, after further consideration and
    research, the PMO determined that it would be able to deploy DTS to about
    260 high-volume sites that generated 86 percent of all DoD temporary duty
    travel. The 260-site deployment would be accomplished in two phases. The
    PMO also determined that if DTS was deployed to an additional 300-plus sites,
    it would capture approximately 99 percent of all DoD temporary duty travel.
    Version 1 of the DTS deployment plan, October 1, 2001, stated that Phase III
    would be completed by the Services and agencies, which would bear
    responsibility for the leadership and funding of this effort. During the study of
    the DTS Program directed by the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer, the Director, Program Analysis and
    Evaluation should determine the number of sites that are most cost-effective to
    receive DTS.



Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Deputy Under Secretary of Defense for
    Logistics and Materiel Readiness ensure that the Defense Travel System
    Program be designated as an Acquisition Category IAM program and the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer complete
    the Program, Analysis, and Evaluation study by October 1, 2002, to
    determine whether the Defense Travel System Program should either
    continue or be terminated.

    Management Comments. The Under Secretary of Defense
    (Comptroller)/Chief Financial Officer, the Deputy Under Secretary of Defense
    (Logistics and Materiel Readiness), and the Acting Principal Director, Deputy
    Assistant Secretary of Defense (Programs) nonconcurred with the draft report
    recommendation to suspend funding for development and deployment of DTS
    until DoD determines whether DTS is the most cost-effective solution to the
    travel process. The Under Secretary of Defense (Comptroller)/Chief Financial
    Officer stated the termination would make a major impact on pilot site
    operations and create significant termination costs for DoD. To address the
    audit concerns, the Under Secretary tasked the Director, Program Analysis and
    Evaluation to undertake a cost-effectiveness study for DTS and report the results
    to him no later than October 1, 2002. The Under Secretary agreed with the
                                         12
intent of the report to improve oversight for DTS and invited the Under
Secretary of Defense (Acquisition, Technology, and Logistics) and ASD(C3I) to
join in the study. Further, any future decision to continue or terminate DTS
will be contingent upon the Program Analysis and Evaluation findings. The
Deputy Under Secretary of Defense (Logistics and Materiel Readiness) stated
that the DTS remains a viable system for meeting future temporary duty travel
requirements while providing broad benefits to DoD. In addition, the Deputy
Under Secretary stated that DTS would be designated as an Acquisition
Category IAM program and, as such, be subject to the acquisition discipline
previously lacking in the program. The Acting Principal Director, Deputy
Assistant Secretary of Defense (Programs) stated that if funds were suspended,
the DTS Program would, for all practical purposes, be terminated. Further,
DTS assessments were conducted during multiple briefings to various
management levels. The assessment result was the July 17, 2001, memorandum
signed by the Under Secretary of Defense (Comptroller)/Chief Financial Officer
and the Under Secretary of Defense (Acquisition, Technology, and Logistics)
that approved proceeding with DTS Program implementation.

Audit Response. Management comments were responsive. It was not the
intent of our recommendation to terminate DTS. We believe the Program
requires additional structure, oversight, and an analysis of whether DTS is the
most cost-effective solution for the DoD travel process. Planned actions by
senior DoD officials, such as their intent to designate the system as an
Acquisition Category IAM program, their plan to provide additional program
oversight, and their intent to perform a cost-effectiveness study of the system,
show concern for the program. Based on the comments, we revised the
recommendation in the final report. Additional comments are not required.

2. We recommend that the Project Management Office comply with the
intent of the Clinger-Cohen Act by managing the Defense Travel System as
a major information technology investment; establishing proper security in
accordance with DoD Directive 5200.28 and DoD Instruction 5200.40; and
developing essential acquisition documents needed for effective oversight,
including:

   a. a mission needs statement,

   b. an operational requirements document,

   c. a life-cycle cost estimate,

   d. an acquisition program baseline, and

   e. a test and evaluation master plan.

Management Comments. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer, the Deputy Under Secretary of Defense
(Logistics and Materiel Readiness), and the Acting Principal Director, Deputy
Assistant Secretary of Defense (Programs) concurred with the recommendation.
The Under Secretary of Defense (Comptroller)/Chief Financial Officer stated
that he has taken action to manage DTS as an Acquisition Category IAM
program in accordance with DoD 5000 series. The Deputy Under Secretary
                                   13
stated the recommended actions were those envisioned by the July 17, 2001,
joint Under Secretary of Defense (Acquisition, Technology, and Logistics) and
the Under Secretary of Defense (Comptroller)/Chief Financial Officer
memorandum. The Acting Principal Director, Deputy Assistant Secretary of
Defense (Programs) stated his office was in the process of designating DTS an
Acquisition Category IAM program. Once designated, DTS will be subject to
all DoD requirements and will be overseen by the Office of the Secretary of
Defense and Joint Staff as a major automated information system. This
oversight will ensure compliance with DoD guidance, including security
requirements addressed in DoD Directive 5200.28 and DoD
Instruction 5200.40.

3. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics; the Under Secretary of Defense
(Comptroller)/Chief Financial Officer; and the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) review the
progress made by the Project Management Office in implementing
Recommendation 2., and determine whether the Defense Travel System
Program should continue or be terminated.

Management Comments. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer, the Deputy Under Secretary of Defense
(Logistics and Materiel Readiness), and the Acting Principal Director, Deputy
Assistant Secretary of Defense (Programs) concurred with the recommendation.
The Under Secretary of Defense (Comptroller)/Chief Financial Officer has
tasked the Director, Program Analysis and Evaluation to undertake a cost-
effectiveness study for DTS and invited the Under Secretary of Defense
(Acquisition, Technology, and Logistics) and the Deputy Assistant Secretary of
Defense (Programs) to join the study. Findings of the study are to be reported
by October 1, 2002. Any future decisions to continue or terminate DTS will be
contingent on the study’s findings. The Deputy Under Secretary stated program
progress will be monitored and decisions made in accordance with the DoD
5000 series milestone reviews and other key requirements. Further, the
decisions contained in the July 17, 2001, memorandum remain valid and that
any future decision to continue or terminate DTS should be vetted through the
DoD 5000 series milestone process. The Acting Principal Director stated they
would review DTS progress on implementing Recommendation 2. at milestone
reviews, the first of which is planned for March 2003. The Integrated Product
Team will review program progress between milestone reviews. ASD(C3I) will
serve as the Milestone Decision Authority for the Defense Travel System and
the Under Secretary of Defense (Comptroller)/Chief Financial Officer and the
Under Secretary of Defense (Acquisition, Technology, and Logistics) will be an
integral part of the DTS milestone review process.




                                  14
Appendix A. Scope and Methodology


Scope
    Work Performed. We performed this audit to examine allegations made to the
    Defense Hotline. Specifically, we examined allegations made concerning
    management of the DTS Program.

    We analyzed PMO management responsibilities and DoD oversight for the DTS
    Program by:

           •   visiting, contacting, and conducting interviews with officials from the
               Offices of the Under Secretary of Defense (Acquisition, Technology,
               and Logistics); the Under Secretary of Defense (Comptroller)/Chief
               Financial Officer; ASD(C3I); the PMO; MTMC; CECOM; and the
               complainants, all in Arlington, Virginia;

           •   reviewing various reports for the DTS Program that included cost,
               schedule, and performance parameters;

           •   reviewing DTS Quarterly Reports submitted to ASD(C3I);

           •   evaluating reports submitted by JITC for operational assessments
               conducted at Whiteman Air Force Base and Ellsworth Air Force Base
               to determine the readiness of site-specific operational capabilities in
               preparation for connectivity to the DTS; and

           •   reviewing the DTS System Security Authorization Agreement to
               determine whether the certification and accreditation process for DTS
               was adequately completed.
    We also reviewed DoD and Military Department acquisition and security-related
    guidance, memorandums, and reports issued from January 1995 through
    July 2001 to determine whether effective management and adequate oversight
    were provided for the DTS Program. Specifically, we reviewed Public Law
    104-106, “The National Defense Authorization Act of 1996,” February 10,
    1996; the DTS “Concept of Operations,” May 8, 1998; and the “Report of the
    DoD Task Force to Reengineer Travel,” January 1995. We reviewed the
    May 7, 1998, contract (effective date September 1998), contract number
    DAMT01-98-D-1005, its modifications, and supporting documentation. We
    also reviewed a proposed modification to contract number DAMT01-98-D-1005
    that would, in effect, restructure the terms and conditions of the original
    contract. In addition, we evaluated DoD and inter-Service memorandums to
    determine senior DoD management decisions related to reengineering DoD
    temporary duty travel.


                                       15
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Systems Modernization high-risk area.



Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Audit Dates and Standards. We performed this audit from July 2001 through
    April 2002 in accordance with generally accepted government auditing
    standards. Accordingly, we included tests of management controls considered
    necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and within TRW. Further details are available on
    request.



Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls in place at the PMO with respect to the
    acquisition and management of a DoD-wide travel system. Specifically, we
    reviewed the PMO business processes and procedures used in acquiring DTS,
    DTS test plans and results, and security procedures in place to ensure the
    accuracy and reliability of data across the system. We reviewed management’s
    self-evaluation applicable to those controls.
    Adequacy of Management Controls. We identified a material management
    control weakness within the PMO. The PMO did not comply with requirements
    applicable to all acquisition programs even though they recognized extensive
    development was necessary to implement the system. Without following DoD
    acquisition procedures, DoD may not adequately accomplish its mission of
    providing a fair and equitable temporary duty travel system for all DoD
    Components. DoD Instruction 5010.40 defines a control weakness as material
    when it impairs fulfillment of essential missions or operations.
    Recommendations 1., 2., and 3., if implemented, should correct the
    weaknesses. A copy of the report will be sent to the senior official in charge of
    management controls in the Office of the Secretary of Defense.
                                       16
    Adequacy of Management’s Self-Evaluation. The PMO identified acquisition
    management, DTS business process and procedures, security planning, and test
    planning as assessable units in its annual statement of assurance. Although
    officials from the PMO identified the above assessable units, they did not
    identify or report the management control weakness identified by the audit.



Prior Coverage
    No prior coverage has been conducted on DoD efforts to reengineer temporary
    duty travel during the last 5 years.




                                     17
Appendix B. Summary of Allegations
   The audit was conducted in response to allegations made to the Defense Hotline.
   The following is a summary of the allegations and the specific results of each
   allegation.

   Allegation No. 1: The DTS Program experienced mismanagement related to
   meeting cost, scheduling, and performance requirements.

            Audit Results: The allegation was not substantiated. The PMO was
   initially directed to manage the DTS Program as an acquisition of travel
   services. Although the PMO recognized extensive development was necessary to
   implement DTS, without redirection from the Under Secretary of Defense for
   Acquisition, Technology, and Logistics and the Under Secretary of Defense
   (Comptroller)/Chief Financial Officer, they could not revise their approach and
   manage the program as an investment in information technology. This
   redirection was not forthcoming until January 2001.

   Allegation No. 2: The DTS deployment timeline originally developed was
   unrealistic.

           Audit Results: The allegation was substantiated. The DTS contract
   originally required DTS to begin deployment within 120 days from the effective
   date of the contract (September 1998) and to complete deployment within
   38 months. The implementation schedule of 120 days was not met because of
   increased development and unexpected testing delays. The PMO does not
   expect full deployment of the DTS to be completed until FY 2006.

   Allegation No. 3: DTS failed to achieve system functionality.

           Audit Results: The allegation was substantiated. The PMO has not
   provided several critical DTS functions, including group travel, centrally billed
   accounts, and debt management. However, officials from the PMO stated that
   these functions were in development and they were planning to address each
   function in future DTS releases.

   Allegation No. 4: The primary contractor failed to deliver a help desk function.

          Audit Results: The allegation was substantiated. As of April 2002, the
   contractor had not provided a comprehensive help desk. Although a help desk
   function was required in the initial contract, specific requirements, such as
   Government and contractor responsibilities, cost, and resources to be used, were
   not addressed. Officials from the PMO and the contractor stated that specific
   requirements were identified and expect an operational help desk function to be
   addressed in the restructured contract.

   Allegation No. 5: The PMO made payments for digital signature software that
   failed testing.


                                       18
        Audit Results: The allegation was not substantiated. On June 9, 1999,
the PMO certified that 85 percent of the digital signature software had been
developed. On October 23, 2000, the digital signature software failed
operational testing at Whiteman Air Force Base; however, the failure was the
result of user error and not a software glitch. On November 3, 2000, after
minor modifications to the software, the contractor was paid for the remaining
15 percent of development. Federal Acquisition Regulation 52.232.1,
“Payment Clause,” July 11, 1997, allows the Government to pay a contractor
the price stipulated for supplies accepted or services rendered.

Allegation No. 6: The selection of the primary contractor was fraudulent
because of its inability to meet contractual requirements.

       Audit Results: The allegation was not substantiated. Based on general
requirements submitted in the request for proposal, the contractor developed a
proposal and was subsequently awarded the contract. Shortly after the contract
was awarded, the PMO and the contractor realized that significant modifications
and extensive development were necessary to implement DTS.

Allegation No. 7: A conflict of interest exists between the PMO and the DTS
contractors.

        Audit Results: The allegation was not substantiated. Since the
allegation was made in July 2000, the PMO has reorganized its management
structure. Normal changes in military assignments, DoD civilians leaving the
PMO for different jobs, and retirement have resulted in new management at the
PMO. Because former personnel from the PMO were not easily accessible and
the complainant was unable to provide further information, we were unable to
ascertain whether a conflict of interest existed.

Allegation No. 8: The PMO paid an additional $7.5 million for commercial-
off-the-shelf software (DTS-Limited) that included the same format as that used
for the full version of DTS.

        Audit Results: The allegation was substantiated. The PMO provided
DTS-Limited as a temporary travel system until the contractor could develop the
full version of DTS. DTS-Limited was added to the contract by modification
P00007 on September 30, 1999. This modification required the contractor to
provide travel manager software, installation, and processing of 1 million
vouchers for $6,808,833. In addition, the modification required a
$650,000 annual maintenance fee. Although DTS-Limited provided DoD a
“stopgap” travel system for sites that required an automated travel system, the
approximate $7.5 million cost would not have been necessary had the full
version of DTS been deployed on schedule.

Allegation No. 9: The roles and responsibilities for two support contractors
were unclear.

       Audit Results: The allegation was not substantiated. The support
contractor’s statement of work provides specific work objectives that were
designed to assist the PMO with program management and software
deployment.
                                   19
Appendix C. Key Program Events
   The following timeline depicts key events occurring from the time a need for
   reengineering DoD travel was identified to present.




                                      20
Appendix D. Departmental Policies


Information Technology Guidance
    Office of Management and Budget Guidance. Office of Management and
    Budget Circular No. A-123, “Management Accountability and Control,”
    June 21, 1995, and No. A-130, “Management of Federal Information
    Resources,” February 8, 1996, establish policy governing the management of
    Federal programs, to include the requirements to design a management structure
    to ensure accountability for results.

    DoD Directive 8000.1. DoD Directive 8000.1, “Defense Information
    Management Program,” October 27, 1992, prescribes management principles
    required for all information management activities, including those related to the
    acquisition of information systems; infrastructures; and resources and services
    to be used for administrative and routine business applications. DoD policy
    requires that accurate and consistent information be made available to decision-
    makers to effectively execute DoD missions. DoD Directive 8000.1 also states
    that a disciplined life-cycle approach should be used to manage information
    systems from their inception through discontinuance. DoD information systems
    should be planned, developed, acquired, and implemented from a DoD-wide
    perspective to ensure consistency of information and processes in and across
    functional areas. Finally, development or modernization of information systems
    should be based on sound business principles by incorporating the evaluation of
    costs and benefits, to include the satisfaction of mission requirements and the
    consistency with life-cycle management policies and procedures.



Acquisition Guidance
    DoD Directive 5000.1. DoD Directive 5000.1, “Defense Acquisition,”
    March 15, 1996 (revised January 4, 2001), describes broad management
    principles applicable to all DoD acquisition programs. The primary objective of
    the policy is to acquire quality products that satisfy the needs of the operational
    user with measurable improvements to mission accomplishment, in a timely
    manner, at a fair and reasonable price. Decision-makers and program managers
    are required to tailor acquisition strategies that:

               •   are consistent with common sense;

               •   conform to sound business management practices;

               •   comply with applicable laws, Defense policies, and regulations;
                   and


                                        21
               •   address the time-sensitive nature of the user’s requirements to fit
                   the particular program.

    The acquisition management guidelines in DoD Directive 5000.1 provide for a
    streamlined management structure and event-driven management process that
    emphasizes affordability and risk management that explicitly links milestone
    decisions to demonstrated accomplishments.

    DoD Instruction 5000.2. DoD Instruction 5000.2, “Operation of the Defense
    Acquisition System,” October 23, 2000 (revised January 4, 2001), implements
    DoD Directive 5000.1. DoD Instruction 5000.2 establishes a simplified and
    flexible management framework for translating mission needs into stable,
    affordable, and well-managed Major Defense Acquisition Programs and Major
    Automated Information Systems. In addition, DoD Instruction 5000.2 is
    intended to be tailored to meet the needs of individual programs.
    DoD Regulation 5000.2-R. DoD Regulation 5000.2-R, “Mandatory
    Procedures for Major Defense Acquisition Programs and Major Automated
    Information System Acquisition Programs,” March 15, 1996 (revised June 10,
    2001), requires all acquisition programs to establish program goals, thresholds,
    and objectives that identify the minimum cost, schedule, and performance
    parameters for a program throughout its life cycle.



Security Guidance
    DoD Directive 5200.28. DoD Directive 5200.28, “Security Requirements for
    Automated Information Systems,” March 21, 1988, mandates, as a minimum,
    security procedures that require automated information systems to be accredited.
    A system is considered accredited when the Designated Approving Authority
    makes a formal declaration that a system is approved to operate in a particular
    security mode using a prescribed set of safeguards at an acceptable level of risk.
    It also mandates automated information systems to operate in accordance with
    security safeguards approved by the Designated Approving Authority.

    DoD Instruction 5200.40. DoD Instruction 5200.40, “DoD Information
    Technology Security Certification and Accreditation Process,” December 30,
    1997, implements DoD Directive 5200.28, assigns responsibility, and prescribes
    procedures for the certification and accreditation of information technology,
    including automated information systems, networks, and sites in DoD. DoD
    Instruction 5200.40 defines a process that standardizes all activities leading to a
    successful accreditation. In addition, DoD Instruction 5200.40 requires the
    program manager, in coordination with the Designated Approving Authority,
    the Certification Authority, and the system user representative, to develop a
    System Security Authorization Agreement for compiling system certification and
    accreditation documentation.




                                        22
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense for Logistics and Materiel Readiness
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
      Program Director, Program Management Office-Defense Travel System
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense (Programs)

Department of the Army
Auditor General, Department of the Army
Commanding General, U.S. Army Communications-Electronics Command

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander, U.S. European Command
Commander, U.S. Pacific Command
Commander, U.S. Joint Forces Command
Commander, U.S. Southern Command
Commander, U.S. Central Command
Commander, U.S. Space Command
Commander, U.S. Special Operations Command
Commander, U.S. Transportation Command
  Commander, Military Traffic Management Command
Commander, U.S. Strategic Command

Other Defense Organization
Director, Defense Information Systems Agency


                                          23
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         24
Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments
                                                 Final Report
                                                  Reference




                                                 Revised
                                                 Page 12




                       25
Final Report
 Reference




Revised
Page 12




               26
27
28
29
30
31
32
33
34
35
36
Deputy Under Secretary of Defense for Logistics
and Materiel Readiness Comments




                       37
Final Report
 Reference




Revised
Page 12




               38
39
40
Deputy Assistant Secretary of Defense (Programs)
Comments
                                                   Final Report
                                                    Reference




                                                   Revised
                                                   Page 12




                       41
42
Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Paul J. Granetto
Richard B. Bird
Kathryn M. Truex
Jacqueline L. Wicecarver
Sean J. Keaney
Velma E. White
Brian L. Zimmerman
Troy R. Zigler
Vansamai Seumsouk
Lisa C. Rose-Pressley
